                                                                OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Department of Transportation - OIG
              Month Ending Date: 09/30/2010

                                                                 Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          Recovery Act TAFS       Award Type       US Indicator       Total Obligations     Total Gross         Direct or               Ordering TAFS
No.                                                                                                                       Outlays         Reimbursable
      Department of Transportation - (69-0131 2009 \             Other            Y - US             $3,590,674         $3,452,727
      OIG                            2013) Transportation -
                                     OIG - Recovery Act
  1                                                                                                                                     Direct                n/a
      Department of Transportation - (69-0131 2009 \          Contract and        Y - US             $325,000            $80,000
      OIG                            2013) Transportation -     Orders
                                     OIG - Recovery Act
  2                                                                                                                                     Direct                n/a
  3
  4
  5
  6
  7
  8

                                                   Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau            FY 2009 Non-          Total FY 2009    Total FY 2009    FY 2010 Non-Recovery   Total FY 2010      Total FY 2010
No.                                   Recovery Act TAFS        Obligations     Gross Outlays          Act TAFS          Obligations       Gross Outlays
    Department of Transportation -   (69-0130 2009)               $1,569,106       $1,569,106 (69-0130 2010)               $5,164,143            $4,949,947
  1 OIG                              Transportation - OIG                                     Transportation - OIG
  2
  3
  4
  5
  6
  7
  8




                                                                                       Page 1                                                DOT OIG Monthly Report.xls
                                                                               OIG Recovery Act Monthly Report


                                     Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                                            Reporting OIG: Department of Transportation - OIG

                                      Month Ending Date: 9/30/2010


                                                                                                   Fiscal Year 2009
                                                                                                                 Monetary Results - Audits, Inspections,
                                                                     Monetary Results -Investigations
                                                                                                                              Reviews*

                                                                                                                Questioned Costs (FY
                                                                       Recoveries (FY 09):              $0.00                                       $0.00
                                                                                                                                09):


                                                                                                                  Unsupported Costs
                                                            Forefeitures/Seizures (FY 09):              $0.00                                       $0.00
                                                                                                                            (FY 09):

                                                                                                                   Recommendations
                                                               Estimated Savings (FY 09):               $0.00        for Better Use of              $0.00
                                                                                                                        Funds (FY 09):



                                                                                                   Fiscal Year 2010
                                                                                                                  Monetary Results - Audits, Inspections,
                                                                     Monetary Results -Investigations
                                                                                                                               Reviews*

                                                                                                                Questioned Costs (FY
                                                                       Recoveries (FY 10):              $0.00                                       $0.00
                                                                                                                                10):


                                                                                                                  Unsupported Costs
                                                            Forefeitures/Seizures (FY 10):              $0.00                                       $0.00
                                                                                                                            (FY 10):

                                                                                                                   Recommendations
                                                               Estimated Savings (FY 10):               $0.00        for Better Use of              $0.00
                                                                                                                        Funds (FY 10):



                                                                                            Cumulative Since 2/17/2009
                                                                                                                Monetary Results - Audits, Inspections,
                                                                     Monetary Results -Investigations
                                                                                                                             Reviews*

                                                                                                                      Questioned Costs
                                                                 Recoveries (cumulative):       $0.00                                       $0.00
                                                                                                                         (cumulative):


                                                                     Forefeitures/Seizures                        Unsupported Costs
                                                                                                $0.00                                       $0.00
                                                                             (cumulative):                             (cumulative):


                                                                                                                   Recommendations
                                                                        Estimated Savings
                                                                                                $0.00                for Better Use of      $0.00
                                                                             (cumulative):
                                                                                                                  Funds (cumulative):



* These data include Federal Audits, Inspections, and Reviews only                                                                                          DOT OIG Monthly Report.xls Page 1
                                                                                                                OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of Transportation - OIG
    Month Ending Date: 9/30/2010

                            FTE Working on Recovery
                                                                                                                                                           Testimonies:
      Fiscal Year              2009            2010                Cumulative
       Newly Hired FTE
                               0.77              15.40                16.17                                                                        Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                               1.54              22.19                23.73                                                                      Provided (cumulative):       5
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        15.20              40.52                55.72
          (cumulative):


                                                                                                                                               Audits / Inspections / Evaluations /
              Complaints                           Whistleblower Reprisal Allegations                          Investigations                                                               Training / Outreach
                                                                                                                                                             Reviews
             Monthly Data                                     Monthly Data                                     Monthly Data                               Monthly Data                         Monthly Data

                                                                                                                                                                                            Training Sessions
              Received:         12                                       Received:       0               Opened (this month):        4           Initiated (this month):      0                                    4
                                                                                                                                                                                                   Provided:

                                                                                                       Active (as of the end of                In Process (as of the end
                                                                         Received:       0                                          36                                       13          Individuals Trained:     263
                                                                                                                   the month):                           of the month):
                                                                                                                                                       Completed Final
                                                                                                                                                                                           Hours of Training
                                                                                                            Pending Decision:       12                  Published Work        0                                   263
                                                                                                                                                                                                  Provided:
                                                                                                                                                               Products:
                                                                                                                                                       Priority Interim
                                                                                                                                                                                          Outreach Sessions
                                                                                                       Closed without Action:        1                 Published Work         0                                    0
                                                                                                                                                                                                Conducted:
                                                                                                                                                             Products:
                                                                                                                                                     Unpublished Work
                                                                                                        Prosecution Declined:        1                                        0
                                                                                                                                                            Products*:

                                                                                                      Referred for Alternative
                                                                                                                                     0                     QCRs Issued:       0
                                                                                                                   Resolution:

                                                                                                                Convictions,
                                                                                                         Settlements, Pleas,      0
                                                                                                                 Judgments:
   Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                       Completed Final
                                                                                                                                                                                            Training Sessions
              Received:        294                                       Received:       4             Closed without Action:       16                 Published Work         8                                   228
                                                                                                                                                                                                   Provided:
                                                                                                                                                             Products:
                                                                                                                                                        Priority Interim
                                                                         Accepted:       4              Prosecution Declined:        5                  Published Work        1          Individuals Trained:     16596
                                                                                                                                                              Products:

                                                                                                      Referred for Alternative                       Unpublished Work                      Hours of Training
                                                                                                                                     6                                        0                                   16854
                                                                                                                   Resolution:                              Products*:                            Provided:

                                                                                                                  Convictions,
                                                                                                                                                                                          Outreach Sessions
                                                                                                           Settlements, Pleas,       0                     QCRs Issued:       0                                   150
                                                                                                                                                                                                Conducted:
                                                                                                                   Judgments:

                                                                                                            Cumulative Total:       27               Cumulative Total:        9



               *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                                       DOT OIG Monthly Report.xls Page 1
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 09/30/2010

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1
         2
         3
         4
         5
         6
         7
         8
         9
        10

       No.                             OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1




                                                                                                               DOT OIG Monthly Report.xls1
                                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of Transportation -
   Month Ending 09/30/2010

                                                                           TRAINING ACTIVITIES
                                                                                                                                                   Hours of
                                                                                                                       Length of                   Training
                                                     Target                            Training Location   Date of                   Number of                   Cost of
     No.               Type of Training                            Title of Training                                    Training                  Provided
                                                    Audience                              (City, State)    Training                 Participants                 Training
                                                                                                                        (hours)                    (length x
                                                                                                                                                 participants)
                                                                Fraud Prevention/
       1         Fraud Prevention/Awareness       Mixed                                Kansas City, KS     9/15/2010            1            50             50
                                                                Awareness Briefing
                                                                Fraud Prevention/
       2         Fraud Prevention/Awareness       Federal                              Washington, DC      9/22/2010            1            75             75
                                                                Awareness Briefing
       3         Fraud Prevention/Awareness       Federal       ARRA Briefing          Atlanta, GA         9/29/2010            1            18             18
                                                                Fraud Prevention/
       4         Fraud Prevention/Awareness       State                                Orlando, FL         9/21/2010            1           120            120
                                                                Awareness Briefing
       5
       6
       7
       8
       9
      10
      11
      12
      13
      14
      15
                                                                                                                        TOTAL               263            263

                                              OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                              Outreach
                    Organization to which                      Description of                               Date of
     No.                                       Represented at                           Location (City,
                     Outreach Provided                            Outreach                                 Outreach
                                                 Outreach                                   State)
                                                  Session
       1
       2
       3
       4
       5
       6



                                                                                                                                     DOT OIG Monthly Report.xls Page 1
